V

No.: 20-7125

In The
Supreme Court of the United States

RASHAN WILLIAMS
Petitioner
v.
STATE OF LOUISIANA
Respondent

ON PETITION FOR A WRIT OF CERTIORARI TO THE
LOUISIANA COURT OF APPEAL, FIRST CIRCUIT

PRO SE BRIEF IN OPPOSITION TO THE ATTORNEY
GENERAL’S BRIEF IN OPPOSITION

Rashan Williams #422041
MPEY/Ash-4
Louisiana State Penitentiary
Angola, Louisiana 70712-9818
June 16. 2021
PREPARED Jtf
David Constance #304580 Offender Counsel Substitute in
Main Prison Legal Aid Office
Criminal Litigation Team
La. State Penitentiaiy
Angola, LA 70712

INTERESTED PARTIES
District Attorney's Office
22nd Judicial District Court
701N. Columbia St.
Covington, LA 70433
Attorney General's Office
P.O. Box 94005
Baton Rouge, LA 70804-9005
Dairel Vannoy, Warden
Louisiana State Penitentiary
General Delivery
Angola, LA 70712

\\Mepd05\ICS\ip-d3>Dn5bnce80'^1 y Documents'lllents\WlIliams\Williarns Rashan #422041\W!lliams Rashan BIO USSCT.odt

TABLE OF CONTENTS:

Page

INTERESTED PARTIES
INDEX OF AUTHORITIES

n

NOTICE OF PRO-SE FILING.

1

INTRODUCTION.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED.

2

STATEMENT OF THE CASE.

2

LAW AND ARGUMENT.

2

ISSUE NO. 1
2
Mr. Warns was convicted by a non-unanimous jury in vitiation of his rights under the
fifth, Sixth, and Fourteenth Amendments and equivalent provisions of the Louisiana
Constitution....................
2
SUMMARY OF ARGUMENT.
13
CONCLUSION......................

14

CERTIFICATE OF SERVICE.

15

PROOF OF SERVICE.

\V^epd05VCSVp-cfconstance80V"ly Do3umentsVdl®Tts\VWIIiams\W!lliams Rashan #422041\Wiil!ams Rashan BIO USSCTodt
Foshan Williams v. Darrel Vannoj, Warden
i.

2

INDEX OF AUTHORITIES:

Page

U.S. CONSTITUTION:
Eighth Amendment to the United States Constitution................................... .
Fifth, Sixth, and Fourteenth Amendments to the United States Constitution
Fourteenth Amendment to the United States Constitution.............................
Fourteenth, Fifth and Sixth Amendments to the United States Constitution.
Section 1 of the Fourteenth Amendment to the United States Constitution...
Sixth Amendment to the United States Constitution......................................
Sixth and Fourteenth Amendments to the United States Constitution..........
United States Constitution, Ait. Vi, cl. 2........................................................

9,11
2
passim
2
9
passim
...1,14
10

FEDERAL CASES:
Apodacav. Oregon, 404 U.S. 406 (1972)............................................
Burch v. Louisiana, 441 U.S. 130 (1979)............................................
Duncan v. Louisiana, 391 U.S. 145, 148-50 (1968).............................
Edwards v. Louisiana, 141 S.Ct. 1547 (2021)......................................
Haines v. Keraer, 404 U.S. 519,92 S.Ct. 594, 30 L.Ed.2d 652 (1972).
Johnson v. Louisiana, 406 U.S. 356, 397 (1972)..................................
McDonald v. City of Chicago, 561 U.S. 742, 130 S.Ct. 3020 (2010)...
Ramos v. Louisiana, 140 S.Ct. 1390 (2020).........................................
Teague v. Lane, 489 U.S. 288 (1989)..................................................
Timbs v. Indiana, 139 S.Ct. 682,203 L.Ed.2d 682 (2/20/2019)...........

5, 8,10,11
3,10
3
1,14
1
4, 9,11
..10,12
..passim
1, 3, 7, 8
9,10

STATUTORY PROVISIONS:
28U.S.C. § 2253.....

14

STATE CASES:
State ex rel. Taylor v. Whitley, 606 So.2d 1292,1296 (La. 1992).
State v. Hankton, 122 So.3d 1193 (La App. 4th Cir. 8/2/13).......

3, 7,8
4

MISCELLANEOUS:
2018 Legislative Session..................................
12
Emancipation Proclamation..............................
12
Louisiana Conrtitutional Convention of 1898...
3
Louisiana's Constitutional Convention of 1974.
4
Marc L. Miller & Ronald F. Wright, Leaky Floors: State Law Below Federal Constitutional Limits. 50
Ariz.L.Rev. 227 (2008).
10
rale 15.6.......................
1

\\Mgpd05\ICS\lp-chon5tancg80\MyDocumente\cHents\Wllllams\WIHiam5 Rashan #422041\Wililams Rashan BIO USSCT.odt

Rashan IVUFiamsv, Darrel Vannoy, Warden

ii.

NOTICE OF PRO-SE FILING
Mr. Williams requests that this Honorable Court view these Claims in accordance with the rulings
of Haines v. Kemer. 404 U.S. 519, 92 S.Ct. 594, 30 L.Ed.2d 652 (1972). Mr. Williams is a layman of
the law and untrained in the ways of filings and proceedings of formal pleadings in this Court.
Therefore, he should not be held to the same stringent rtandards as those of atrained attorney.
INTRODUCTION
Pursuant to rule 15.6, Petitioner Rashan Williams files this Pro-Se Reply Brief to the Attorney
General's Brief in Opposition.
This Honorable Court held in Ran os v. Louisiana. 140 S.Ct. 1390 (2020), that, “a conviction
based upon anon-unanimous jury verdict - in state or federal court - violates the Sixth and Fourteenth
Amendments.” However, in Edwards v. Louisiana. 141 S.Ct 1547 (2021), this Court deemed that the
right to a non-unanimous jury verdict was not retroactive to individuals whose convictions have
become final
Pro Se Petitioner, Rashan Williams respectfully prays that a Writ of Certiorari issue to review Mr.
Williams' contention that the holing in Ram os v. Louisiana. where the Justices had agree that the right
to a unanimous jury verdict has always been guaranteed by the Sixth Amendment to the United States
Constitution, and made applicable to the stales through the Fourteenth Amendment.
Furthermore, this Court must determine that Mr. Williams does not have to meet the criteria of
Teague v. Lane. 489 U.S. 288 (1989) due to the fart that a defendant's right to a unanimous jury verdict
cannot be considered a “new rule of lavv” in accordance to federal standards since the inception of the
Bill of Rights to the United States Constitution. Mr. Williams asks: “How can you consider a
constitutionally mandated guarantee, which has been the standard for hundreds of years be considered a
'new rule of law?'”
This Court must consider the fact that if the non-unanimous jury verdict was unconstitutional in
\\Mepd05\ICS\lp-cbDnstance80Vu1y Dccuments\dients\Wflllams\Wllliams Rashan #422041\W!lllams Rashan BIO USSCTodt
Rashan Williams v. Darrel Vannoy, Warden
1.

Ramos, then it's use in Mr. Williams' case is also unconstitutional due to the fact that Mr. Williams was
convicted under the same Louisiana Constitution provisions and Louisiana statutes as Evangelisto
Ramos.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fourteenth, Fifth and Sixth Amendments to the United States Constitution.
STATEMENT OF THE CASE
Mr. Williams relies upon his Statement of the Case as stated in his Original Petition for Writs of
Certiorari to this Honorable Court. However, Mr. Williams would also note that on January 8, 2021,
Mr. Williams filed his Original Petition. On February 11, 2021, Mr. Williams' case was docketed with
this Court as designated as Docket Number 20-7125, and on June 2, 2021, the Attorney General's
Office filed its Brief in Opposition, which was received by Mr. Williams on June 7,2021.
Mr. Williams humbly requests that this Honorable Court find his pleadings good and proper, and
that this Court grant him relief in this matter.
LAW AND ARGUMENT
ISSUE NO. 1
Mr. Williams was convicted by a non-unanimous Jury in violation of his rights under the
fifth, Sixth, and Fourteenth Amendments and equivalent provisions of the Louisiana
Constitution.
Mr. Williams is an African-American man who was tried for a murder, 1 juror voted to acquit. Had
Mr. Williams been tried in federal court or any of 48 states, that 11-1 verdict would not have sufficed to
convict him. But Louisiana allowed non-unanimous jury verdicts at the time, making the dissenting
jurors' votes meaningless. Mr. Williams was convicted and sentenced to life in prison without the
benefit of Probation, Parole, or Suspension of Sentence.
First and foremost, it is quite unfathomable that the Attorney General's Office would actually call
into question of the United States Supreme Court's jurisdiction in this matter. The United States

\\Mepd05\ICS'vlp-d:onst3nce80\My Documented ients\Wi Iliams\Wil Ham s Rashan #422041\\A/i!llams Rashan BIO USSCT.odt

Rushan Williams v. Darrel Vannoy, Warden

2.

Supreme Court is the ultimate authority in the Law of this nation.
This case meets the test for retroactive application enunciated by the Supreme Court in Teague v.
Lane. 489 U.S. 288 (1989). It is time we abandoned our use of Teague in favor of a retroactivity test
that takes into account the harm done by the past use of a particular law. By either route, Louisiana
should give Ram os retroactive effect.
In 1992, Louisiana adopted Teague's test for determining whether decisions affecting rights of
criminal procedure would be retroactively applied to cases in state collateral review. State ex rel.
Taylor v. Whitley. 606 So.2d 1292,1296 (La 1992). In relevant part, Teague only requires retroactive
application of a new rule if it is a “watershed rule of criminal procedure” that “implicates the
fundamental fairness [and accuracy]” of the criminal proceeding. Teague. 489 U.S. at 311-312.
Ramos meets that definition. It plainly announced a watershed rule. “The Sixth Amendment right to
ajury trial is 'fundamental to the American scheme ofjustice' and incorporated against the States under
the Fourteenth Amendment.” Ramos. 140 S.Ct. at 1397 (citing Dunam v. Louisiana. 391 U.S. 145,
148=50 (1968). Therefore, the remaining question under Teague is whether the Ramos m\& implicates
fundamental fairness and accuracy. Because the United States Supreme Court denied the instant Writ
Application, we do not have a full briefing on this issue. However, the existing Ramos record alone
supports the conclusion that it does. The law that Ramos struck was designed to discriminate against
African-Americans and it has been successful. For the last 120 years, it has silenced and sidelined
African-Americans in criminal proceedings and cause questionable convictions throughout Louisiana.
The post-Reconstruction Louisiana Constitutional Convention of 1898 sought to “establish the
supremacy of the white race.” Ramos. 140 S.Ct. at 1394. It “approved non-unanimous juries as one
pillar of comprehensive and brutal program of racist Jim Crow measures against African-Americans,
especially in voting and jury service.” M, at 1417 (Kavanaugh, J., concurring in part), ‘t A] ware that

\\Mepd05\ICS^jp-ck;onstanceS0\My Dxument3\cl!ents\W1l!iams\Wlliams Rashan #422041\Wi!l!ams Rashan BIO USSCTodt

Rashan Williams v. Darrel Vannoy, Warden

3.

this Court wouid strike down any policy of overt discrimination against African-American jurors as a
violation of the Fourteenth Amendment, the delegates sought to undermine African-American
participation on juries in another way. With a careful eye on racial demographics, the convention
delegates sculpted a ’facially race-neutral” rule ... in order “to ensure that African-American juror
service would be meaningless.1” Id
Data showing that votes of African-American jurors have been disproportionately silenced is
compelling evidence that the use of pre-Ramos rule affected the fundamental fairness and accuracy of
criminal trials. ‘In light of the racist origins of the non-unanimous jury, it is no surprise that nonunanimous juries can make a difference in practice, especially in cases involving black defendants,
victims, or jurors.” Id., at 1417 (Kavanaugh, J., concurring in part). The whole point of the law was to
make it easier to convict African-American defendants at criminal trials, even when some of the jurors
themselves were African-American. By Louisiana's Constitutional Convention of 1974, which
reauthorized the use of the Jim Crow law, the expected ease of convicting African-Americans in
Louisiana had come to simply be described as “judicial efficiency.” State v. Hankton. 122 So.3d 1193
(La App. 4th Cir. 8/2/13).
But despite “race neutral” language justifying the law in 1974, it has continued to have a
detrimental effect on African-American citizens.1 “Then and now non-unanimous juries can silence the
voices and negate the votes of black jurors, especially in cases with black defendants or black victims,
and only one or two black jurors. The 10 jurors “can simply ignore the views of their fellow panel
members of a different race or class.” Johnson v. Louisiana. 406 U.S. 356, 397 (1972)(Steward, J.,
1 Data on nan-unanimous jury verdicts contained in the reccrd of State v. Metsiu Cortez Maxie, 1 Injudicial District Court,
No. 13-CR-72522 and submitted to the Supreme Court in the Joint Appendix in Ramos r. Louisiana, shows that AfricanAmericans have been 30 percent mere likely to be convicted by non-unanimous juries than white defendants and that
African-American jurors cast "empty” votes at 64 percent above the expected rate whereas white jurors cased “empty”
votes at 32 percent less that the expected rate if empty votes were evenly dispersed amongst all jurors. Ramans. Lottimata.
2018 WL 8545357, at *51 (2018).
\\MepdiJ5'\ICS''lp-dconstance80\My Documents\cllente\WiIliams\W!liams Rashan #422041\Wlliams Rashan BIO USSCT.odt

Rashan Wiliams v. Darrel Vannoy, Warden

4.

dissenting).” Ramos: 140 S.Ct. at 1414-18)(Kavanaugh, J., concurring in part).
Approximately 32% of Louisiana's population is Black. Yet, according to the Louisiana Department
of Corrections, 69.9% of prisoners incarcerated for felony convictions are Black. Again, this grossly
disproportionate backdrop, it cannot be seriously contended that our longtime use of a law deliberately
designed to enable majority-White juries to ignore the opinions and votes of Black jurors at trials of
Black defendants has not affected the fundamental fairness of Louisiana's criminal legal system. The
original discriminatory purpose and the lasting discriminatory effect of the non-unanimous jury rule all
implicate fundamental fairness.
The rights at issue here also directly implicate the accuracy of convictions. While many of those
convicted by non-unanimous juries are surely guilty of the crimes of which they were convicted, we
still have a subset of convictions where at least one - but often two - jurors had sufficient doubt of the
accused's guilt to vote “not guilty.” Experience teaches, and the Ramos decision reiterates, that those
“not guilty” votes should not be cavalierly dismissed as meaningless:
Who can say whether any particular hung juiy is a waste, rather than an example of a jury doing
exactly what the [Apodaca] plurality said it should - deliberating carefully and safeguarding
against overzealous prosecutions? And what about the fact, too, that some studies ... profess to
have found that requiring the unanimity may provide other possible benefits, including more
open-minded and mere thorough deliberations?
Ramos. 140 S.Ct., at 1401.
In fact, the United States Supreme Court held that:
On what ground would anyone have us leave Mr. Ramos in prison for the rest of his life?
Not a single Member of this Court is prepared to say Louisiana secured his conviction
constitutionally undo" the Sixth Amendment No one before us suggests that the error was
harmless Louisiana does not claim precedent commands an affirmance. In the end, the best
anyone can seem to muster against Mr. Ramos is that, if we dared to admit in his case what
we all know to be true about the Sixth Amendment, we might hme to say the same in some
others. But where is there justice in that? Every judge must learn to live with the fact he or
she will make some mistakes; it comes with the territory. But it is something else entirely to
perpetuate something we all know to be wrong because we fear the consequences of being
right
\\Mepd05\ICS\!p-±on5tanc^DWy Dceumente\dlents\WIliams\WIHams Rashan #422Ci41\Williams Rashan BIO USSCTodt
Rashan Williams v. Darrel Vannoy, Warden
5.

Ramos ft Louisiana, 590 U.S.

(2020)(plurality opinion)(slip op., at 26).

Here, in addition to the long line of above cited cases supporting unanimous juries under the Sixth
Amendment, every other provision of the Bill of Rights has been found incorporated to the states by
tlie Fourteenth Amendment in a manner that shows “no daylight.” See; Ttmbs. 139 S.Q., at 687 n. 1,
Ramos. 590 U.S. at___(slip op., at 13).
The Ramos decision only reiterated what the Court had long found: that the constitutional right to a
unanimous jury verdict applied equally in state and federal courts”
This Court has repeatedly and over many years, recognized that the Sixth Amendment requires
unanimity ... There can be no question either that the Sixth Amendment's unanimity
requirement applies to state and federal criminal trials equally. This Court has long explained
that the Sixth Amendment right to a jury trial is “fundamental to the American scheme of
justice” and incorporated against the States under the Fourteenth Amendment The Court has
long explained, too, that incorporated provision of the Bill or Rights bear the same content
when asserted against States as they do when asserted against the federal government. So if tire
Sixth Amendment's right to a jury trial requires a unanimous verdict to support a conviction in
federal court, it requires no less in state court.
Ramos, Id., at

(slip op., at 6-7).

We need not look far back in history to be reminded that sometimes the will or opinion of a
majority is wrong and the dissenting minority was factually, or morally, correct. But during the 120
years of Louisiana's non-unanimous jury scheme, jurors on the majority never had reason to consider
the perspective or opinion of a minority dissenting jurors, because - by design - once the jury reached
a consensus of ten, dissenting voices became irrelevant. While we will likely never know how many
factually inaccurate convictions have rested on non-unanimous jury verdicts, nor in how many the rule
was a pivotal cause of the wrongful conviction, we know they have occurred.2
The non-unanimous jury rule has “allow[ed] convictions of some who would not be convicted
under the proper constitutional rule, and [has] tolerate[dJ and reinforce[d] a practice that is thoroughly
2

In 2019 alone, two Louisiana men who have been convicted by non-unanimcus juries were exonerated and freed after
fingerprint database searches identified the true perpetrators in both cases. Archie Williams spent 36 years wrongfully
imprisoned For rape and attempted murder and Royal Clark spent 17 years wrongly imprisoned for Armed Robbery.

\\j^epd05\ICS^p-cbDnstanc^0\My Dccuments\dients\VWIliams\VWIHams Rashan #422041\Wi Warns Rashan BIO USSCTodt
Rashan Williams v. Darrel Vannoy, Warden
6.

racist in its origin and has continuing racially discriminatory effects.” Ramos. 140 S.Ct., at 1419
(Kavanangh, J., concurring in part). By Justice Kavanaugh's accurate summary alone, Ramos satisfies
the relevant portion of Teagues test and should be applied retroactively by Louisiana courts.
But we are not bound to continue using Teague1 s test, and there are good reasons to abandon the
decision in Tfrg/orthat adopted it. There was little in the Taxlor rationale that commands our continued
adherence to Teague. Dissenting in Taylor. Chief Justice Calogero explained why Teague's premise did
not apply to state courts: “[Federal courts have indicated that their reduced intrusion into state criminal
process is motivated by concerns of federalism and comity. State courts should not blindly adopt these
new criteria, because the concerns of federalism and comity are absent from state criminal court
proceedings.” Taxlor. 606 So.2d at 1301 (Calogero, C.J., dissenting). Since this Court decided Taxlor in
1992, Congress and the federal courts have created ever more restrictions on the availability of the
federal writ of habeas corpus to prisoners convicted in state court, further undermining the premise of
Taxlor and creating additional imperative for us to revisit its holding.
The importance of the Ramos decision - and the historic symbolism of the law that it struck present the opportunity to reassess Taxlor and the wisdom of Louisiana using the Teague standard in
retroactivity analysis. We should The original purpose of the non-unanimous jury law, its continued
use, and the disproportionate and detrimental impact it has had on African-American citizens for 120
years is Louisiana's hist ory. The recent campaign to end the use of the law is already part of the history
of this state's long and ongoing struggle for racial justice and equal rights for all Louisianans. That
campaign meant many more citizens now understand the law's origins, purpose, and discriminatory
impact. And that understanding contributes to a cynicism and fatal mistrust Louisiana's criminal justice
system by many citizens who seek the luxury of fundamental fairness and equal protection afforded to
all. It is time that our state courts - not the United States Supreme Court - decided that whether we

\\Mepd05\ICS\|p-<±onstance80\MyDocuments\dlents\William5\Wlllams Rashan #422041\Williams Rashan BIO USSCTodt
7.

Rushan Williams v. Darrel Vannoy, Warden

should address the damage done by our longtime use of an invidious law.
The racist history of the law was not explicitly relevant to the Supreme Court's determination that
the Sixth Amendment requires jury unanimity. However, a majority of the Justices considered hat
history as one of the principled justifications for abandoning &are decisis and departing from the
“gravely mistaken” and “egregiously wrong” “outlier” precedent ofApodaca v. Oregon. 404 U.S. 406
(1972)(in which a plurality of the Supreme Court held that Oregon and Louisiana^ non-unanimous jury
schemes did net violate the Sixth Amendment) in favor of a correct interpretation of the Sixth
Amendment's jury requirement. Ramos: 140 S.Ct., at 1405, 1418.3 That history should be just as - if
net more - persuasive to us in deciding whether to overrule Ihe erroneously reasoned Taylor case. I am
persuaded that we should replace Teague's test with one that, at least in part, weighs the discriminatory
law that has disproportionately affected Black defendants and Black jurors. There is no principled or
moral justification for differentiating between the remedy for a prisoner convicted by that law whose
case is on direct review and one whose conviction is final. Both are equally the product of racist and
unconstitutional law. If concerns of comity and federalism ultimately mean that the federal courts do
not force us to remedy those convictions which are already final through a writ of habeas corpus, the
moral and ethical obligation upon courts of this state to address the racial stain of our own histoiy is
even more compelling, not less.
“Any decision by [the Supreme] Court that a new ruled does not apply retroactively under Teague
^he Court's majority opinion noted that “.Apodaca was gravely mistaken [and] no Member of the Court today defends [it]
as rightly decided ... The [Apodaca] plurality spent almost no time grappling with the racist origins of Louisiana's and
Oregon's laws.” Samar, 140 S.Ct., at 1405. Justice Kavanaugh further explained the relevance of the law's history:
"... [T]he disputed question here is whether to overrule an erroneous constitutional precedent that allowed
non-unanimous juries. An on that question - the question whether to overrule - the Jim Crow origins and
racially discriminatory effects (and the perception thereof) of non-unanimous juries in Louisiana and Oregon
should matter and should count heavily in favor of overruling, in my respectful view. After all, the nonunanimous jury is today the last of Louisiana's Jim Crow laws.1 And this Court has emphasized time and again
the ‘imp active to purge racial prejudice from the administration of justice1 generally and from the jury system
in particular.”
Samar, 140 3,Ct, at 1418 (Kavanaugh, J. additionally ccncurring)(citing T. Aiello, Jim Crow’s Last Stand: non-unanimous
criminal Jury verdicts m Louisiana, 63 (2015).
\\M 0pdO5\I CS\lp- ±ori3tsnc980\M y Docum ente\d I enfeWvi 111 a m s\WI 111 a m s Rashan #42204l\Willlams Rashan BIO USSCXodt
Rushan WUHams v. Darrel Vannoy, Warden
8.

does not imply that there was no right and thus no violation of that right at the time of trial - only that
no remedy will be provided in federal habeas courts.” Dan forth. 552 U.S., at 291. Justice Johnson of
the Louisiana Supreme Court believes that we must formulate a new test for determining whether a
decision be Replied retroactively; one that includes a consideration of whether a stricken law had a
racist origin, has had a disproportionate impact on cognizable groups or has otherwise contributed to
our state's history of systematic discrimination against African-Americans. And under any such test, I
believe Ram os would have to be retroactively applied.
In 71mbs v. Indiana. 139 S.Ct. 682,203 L.Ed.2d 682 (2/20/2019), the United States Supreme Court
held that: “A Bill of Rights protection is an incorporated protection, applicable to the States under the
Fourteenth Amendment's Due Process Clause, if it is fundamental to the scheme of ordered liberty, or
deeply rooted in the Nation's history and tradition.” Fourteenth Amendment to the United States
Constitution. It must be noted that Timbs was determined with a unanimous decision amongst the
Justices of the United States Supreme Court.
Furthermore, it must be noted that, “If a Bill of Rights is incorporated by the Fourteenth
Amendment's Due Process Clause, and then enforced ^gainst the States, there is no daylight between
the federal and state conduct it prohibits or requires.” Fourteenth Amendment to the United States
Constitution.
Although the question presented to the United States Supreme Court in Timbs concerned the Eighth
Amendment's Excessive Fines Clause, this case mirrors Timbs in requesting that the Honorable Court
similarly determine that the Sixth Amendment right to a unanimous verdict guaranteed in the federal
courts is applicable to the State through the Fourteenth Amendment's Due Process Clause.
“Any correct reading of Section 1 of the Fourteenth Amendment to the United States Constitution
would acknowledge that the Privileges and Immunities Clause provide an alternative basis for applying

WMepdOSyCSVp-cfconstance^iVuly Documentedlente\VWIliams\VWIHams Rashan #422041\W!lliams Rashan BIO USSCT.odt

Rushan Williams v. Darrel Vannoy, Warden

9.

to the States, at minimum, those individual rights enumerated in the first eight Amendments.” See:
Tbnbsv. Indiana. 139 S.Ct. 682, 691 (2019)(Gorsuch, J., concurring). Here, there is a special reason to
do so because Apodaca stands in the way of incorporation under the Due Process Clause. Rather than
overrule Apodaco. the Court could hold that the Privileges and Immunities Clause requires the States to
convict people of serious crimes only by unanimous verdict of an “impartial jury.”4 See: Fourteenth
Amendment to the United States Constitution.
After all, the Constitution sets a floor of rights below which state authorities may not go; yet, under
the two-trade approach, the state and local authorities can (and do) fall beneath the federal
constitutional minimum. See: Marc L. Miller & Ronald F. Wright, Leaky Floors: State Law Below
Federal Constitutional Limits, 50 Ariz.L.Rev. 227 (2008).
This Court should not allow he States to construct a basement of rights somewhere beneath the
federal floor. See: United States Constitution, Art. Vi, cl. 2 (“This Constitution ... shall be the supreme
Law of the Land; and the Judges in every State shall be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding”).
But, there is never a legitimate basis for “deviation from the federal blue-print,” id., when he
blueprint is the Constitution, cf, McDonald v. City of Chicago. 561 U.S. 742, 790 (2010)(plurality
opinion)f Incorporation always restricts experimentation and local variations, but that has not stopped
he Court from incorporating virtually every oher provision of the Bill of Rights”). See also: Burch y.
Louisiana. 441 U.S. 130,138-9 (1979)(holding hat the individual right to an “impartial jury” prevails
against a state's interest in “'considerable time' savings” that might be gained from using nonunanimous, six-person juries).
4 There is no textual basis fer a two-track approach to in corporation under the Privileges and Immunities Clause because
rights of national citizenship -by definition - apply everywhere in the Nation. See; United States Constitution, Amendment
14, § 1 £‘No State shall make or enforce any law which shall abridge the privileges or immunities of cib'&KS ofthe Untiled
Sttaes ...” (emphasisadded)
\\Mepd05\ICS\)p-(±on3tance80\My Documenbtellents\WiIliams\\MIHams Rashan #42204f\Willlams Rashan BIO USSCTodt
Rushan Williams v. Darrel Vannoy, Warden
10.

r
The Constitution is an inexorable command, impervious to “empirical research,” see Johnson. 406
U.S., at 374, n. 12 (Powell, J., concurring in the judgment in Apodaca) and unyielding to
“experimentation” in the States, id, at 377, even in service of such beneficial ends as “innovations with
resped to determining - fairly and more expeditiously - the guilt or innocence of the accused,” id, at
376.
Because “the Sixth Amendment requires a unanimous jury verdict to convict in a federal criminal
trial,” id, at 371 (emphasis in original), the same is required to convict a person in a state criminal trial
via the Fourteenth Amendment to the United States Constitution.
The Court should hold that the Sixth Amendment's guarantee of jury unanimity is a privilege or
immunity of national citizenship, which Section 1 of the Fourteenth Amendment makes applicable to
the States. If the Court resolves the question presented on Due Process grounds instead, it should
overrule Apodaca and hold that the Sixth Amendment right to conviction by a unanimous jury applies
to States because it is deeply rooted in our Nation's history and traditions and fundamental to our
scheme of ordered liberty.
In Justice Gorsuch's concurring opinion in Timbs. the Honorable Justice stated:
The majority faithfully applies our precedent and, based on a wealth of historical evidence,
concludes that the Fourteenth Amendment incorporates the Eighth Amendment's Excessive
Fines Clause against the States. I agree with that conclusion. As an original matter, I
acknowledge, the appropriate vehicle for incorporation may well be the Fourteenth
Amendment’s Privileges or Immunities Clause, rather than, as this Court has long assumed, the
Due Process Clause.”
Mr. Williams' would like this Honorable Court to note that the State of Louisiana does not
meaningfully challenge the case for incorporating the requirement of unanimous jury verdicts through
the use of the Fourteenth Amendment's Due Process Clause as a general matter. Instead the State of
Louisiana argues “Judicial Economy” as its reason for this Court to deny him relief in this matter.
In short, the historical and logical case for concluding that the Fourteenth Amendment incorporates

Wepd05\JCS\lp-cfconstance80\My Documente\pllents\WiIliams\VWIHams Rashan #422041\Willlams Rashan BIO USSCXodt

Rashan Williams v. Darrel Vannqy, Warden

11.

the right to a unanimous jury verdict is overwhelming. The right to a unanimous jury verdict secured
by the Fourteenth Amendment Due Process Clause is both “fundamental to our scheme or ordered
liberty,” and “deeply rooted in this Nation's history and tradition.” McDonald v. City of Chicago. 561
U.S. 742, 767, 130 S.Ct. 3020 (2010).
Most amazingly, during the course of the 2018 Legislative Session concerning the possibility of
(hanging the Louisiana Constitution's amendment concerning non-unanimous jury verdicts, the
prosecutors informed the Legislators during the Hearing that they were going to address the “White
Elephant in the room.” The prosecutors admitted that the non-unanimous jury verdict laws were based
on “Slavery,” but stated, “It is what it is,” ... “but it worics.” It would appear that any hope the Stale
would have had to prevent the Bill's passage was “shot out of the water” with these remarks during the
course of the hearing.5This Honorable Court must consider the fact that on Novanber 6, 2018, the
voters of Louisiana voted to change the Law concerning non-unanimous verdicts. Although the new
law only applies to persons whose offenses were committed on or after January 1, 2019, the State
admitted that the Law was premised on racial discrimination during the arguments concerning such
during the Legislative Session. A Law based on any discrimination cannot stand.
This Court must consider the fact that when President Lincoln signed the Emancipation
Proclamation, all Slaves were set free, regardless of when they had been forced into servitude.
However, the State of Louisiana found a solution to overcome the abolition of Slavery, and to ensure
that the Anglo Saxon race retained its superiority.
Naturally, some of the Legislators had taken offense to to the District Attorneys' (John F. DeRosier
[Calcasieu Parish], and Don M. Burkett [Sabine Parish]) statements which infuriated the Panel to the
point where they agree to send the amended Bill to the House of Representatives by a vast majority for
5 Mr. Williams’ is unable to obtain a copy of the CD of the Committee Hearing in order to provide a copy to the Courts due
to the restrictions of this institution
\\Mepd05\lCS’yp-cfcon3t3nce80\My Documented lents\WI Ilia ms\WII Ham s Rashan #422041\Williams Rashan BIO USSCT.odt

Rashan Williams v. Darrel Vannoy, Warden

12.

r
a full vote. Although the Bill was amended to reflect Prospective Application, Mr. DeRosier agreed
that most likely the Federal Courts would rule that the new law had to be applied retroactively. This
Bill was passed with a vast majority of the Legislators.
In addition to being inconsistent with the vast majority of criminal procedure practice across the
country, Louisiana's non-unanimous jury rule - the Ramos Court explained - was born from the Jim
Crow era. “With a careful eye on racial demographics, die [1898 Constitutional] Convention delegates
sculpted a facially race-neutral' rule permitting 10-to-2 verdicts in order 'to ensure that AfricanAmerican jury service would be meaningless.1” Id, at___(slip op., at 2).
This Honorable Court must consider the fact that on November 6, 2018, the voters of Louisiana
voted to change the Law concerning non-unanimous verdicts. Although the new law only applies to
persons whose offenses were committed on or after January 1, 2019, the State had admitted that the
Law was premised on racial discrimination (or Slavery) during the aguments concerning such during
the Legislative Session. A Law based on discrimination cannot stand. Although the ballot failed to
include the fact that the non-unanimous jury verdict was based on racial discrimination, the
Constitutional Amendment was passed by the voters of the State of Louisiana
Wherefore, as the non-unanimous jury verdict laws were based on racial discrimination (or
Slavery), this Court must determine that the use of such is unconstitutional, as any Law based on
discrimination must be considered Moot and unconstitutional; and should apply to everyone affected
by such.
SUMMARY OF ARGUMENT
As Louisiana has admitted that this Law was predicated upon racial discrimination (or Slavery)
during its inception, this Court has firmly held that any Law based on any discrimination is void, and
must be declared unconstitutional. Although Louisiana admits that the Law was predicated upon racial

\\Mepd05\ICS'Jp-<±on5tance80\MyDocuments\cllents\William5\W!lllams Rashan #422041\Willlams Rashan BIO USSCT.odt

Rashan Williams v. Darrel Vannoy, Warden

13.

I

discrimination, Louisiana now atgues that the Law h^ remained in effect since 1974 due to
“convenience.” Again, Mr. Williams argues that once Louisiana admitted that the Law was based on
racial discrimination, there can be no doubt that this Law's sole purpose was to discriminate against
African Americans and other minorities.
The State of Louisiana has continued to utilize the “Jim Crow" Laws which were enacted for
discriminatory reasons. Although this Honorable Court has admitted that the use of the non-unanimous
jury verdict is unconstitutional, it appears as though the Court is relying upon the State of Louisiana to
resolve this mess on its own. However, after the denial in Edwards. the Legislators “hilled” the Bill
which would correct this.6 It is time to say "ENOUGH IS ENOUGH.”
This case gives this Court the opportunity to tell the State of Louisiana that it's time to follow the
United States Constitution (Sixth and Fourteenth Amendments), and abolish the “Jim Crow” Laws they
have relied heavily on for over ahundred years.
CONCLUSION
After a review of the Record in this case, Mr. Williams requests that this Honorable Court must
determine that Mr. Williams was denied his constitutional rights to a fair and impartial trial in this
matter.
Furthermore, jurists of reason would have properly considered Mr. Willians' Issues and Granted
Mr. Williams relief from his convictions. The record sufficiently supports Mr. Williams' allegation of
substantial error. Therefore, this Honorable Court should find that, in the Interest of Justice, Mr.
Williams should receive anew trial, or in the alternative, an evidentiary hearing to review the merits of
the constitutional violations. Mr. Williams seeks relief and has stated grounds under 28 U.S.C. § 2253,
specifying, with reasonable particularity, the factual basis for such relief. Additionally, his pleading
6 During this Legislative Session, a Bill was filed to grant relief to defendants who had been convicted with the use of the
non-unanimous jury verdict law. However, immediately following this Court’s denial of retroactivity of Anwar in Mwnifr.
the Bill “died” in Committee.
\\Mepd05\ICS\lp-cfcon5tance80\My Documente\dlente\Wlliiarns\VWIIIams Rashan #422041\Wllliams Rashan BIO USSCTodt
Rushan Williams v. Darrel Vannoy, Warden
14.

0

clearly alleges Claims Which ifproven, entitle him to constitutional relief.
WHEREFORE, after a careful review of the merits of these Claims, Mr. Williams contends that
this Honorable Court will find that reasonable jurists would not allow these convictions to stand.
Respectfully submitted this 16ft day ofJune. 2021.
/

Rashan Williams #422041
MPEY/Ash-4
Louisiana State Penitentiary
Angola, Louisiana 70712-9818

CERTIFICATE OF SERVICE
Mr. Williams certifies that on this date, the 16a day of June, 2021. pursuant to Supreme Court Rule
29.5(b), the accompanying Reply to the State of Louisiana's Brief in Opposition was served on each
party to the above proceeding, or that party's counsel, and on every other person required to be served,
by depositing an envelope containing these documents in the United States mail properly addressed to
each of them and with first-class postage prepaid.
The names and addresses to those served are as follows:
Warren Montgomery
District Attorney
701N. Columbia St.
Covington, LA 70433

JeffLandry
Attorney General (State of Louisiana)
P.O. Box 94005
Baton Rouge, LA 70804

Wqxl05VCS\lp-ckxinstance80Vk1y Docximents\dfente\Willlams\VVilllams Rashan #42204i\Willlams Rashan BIO USSCTodt

Rashan Williams v. Darrel Vannoy, Warden

15.

